 




    NATIONAL OCEANIC
    AND ATMOSPHERIC
    ADMINISTRATION
    More Action Needed
    to Improve Controls
    in Asset Forfeiture Fund

    FINAL REPORT NO. OIG-12-019-I
    FEBRUARY 8, 2012



    U.S. Department of Commerce
    Office of Inspector General
    Office of Audit and Evaluation


    FOR PUBLIC RELEASE




 
                                                       UNITED STATES DEPARTMENT OF COMMERCE
                                                       Office of Inspector General
                                                       Washington, D.C. 20230




February 8, 20 12

MEMORANDUM FOR: 	Dr. Jane Lubchenco
                 Under Secretary of Commerce for Oceans and Atmos phere


FROM:                       Ann C. Eilers
                            Principal
                                            • ~~    t
                                        Assis~spector
                                                      f{t~General for Audit and Evaluation

SUBJECT:                    More Action Needed to Improve Controls in       A~set   Forfeiture Fund
                            Final Report No. OIG-12-0 19-1

This memorandum provides our final report, More Action Needed to Improve Controls in Asset
Forfeiture Fund. We conducted the review to address concerns with controls over the Asset
Forfeiture Fund (AFF) raised in OIG reports published in January 20 I0 and July 20 I0, which
revealed several weaknesses in NOAA's management and internal controls over the AFF. The
July 20 I0 report also showed that NOAA inconsistently identified accounts that constituted the
AFF.

Our review focused on determining (I) if NOAA properly defined assets comprising the AFF,
including the completeness and accuracy of funding sources, (2) if NOAA appropriately defined
allowable uses of fund assets and developed controls over collections and disbursements, and
(3) if the audit plan of the independent auditor of the AFF financial statements was designed to
provide reliance on the AFF cash balances as of March 31, 20 I I, and if the independent auditor
could provide an opinion on the balance.

We found that NOAA (I) lacks appropriate controls to assure that all proceeds from fines,
penalties, and forfeitures are received and accurately recorded, and (2) has not accurately
recorded or adequately pursued the total amount owed for fines and penalties. Our report
describes these weaknesses in detail and recommends steps to strengthen controls over Asset
Forfeiture Fund activities. We also noted that the AFF does not contain all fines, penalties, and
forfeited proceeds collected by NOAA for marine resource violations; described NOAA's
accounting for the use of fines and penalties from Northeast Multispecies Fishery Management
Plan violations; and provided a further clarification of AFF inflow and outflow data.

In accordance with Department Administrative Order 213-5, within 60 days of the date of this
memorandum, please provide us with an action plan that responds to all of the report
recommendations.

We would like to thank the NOAA staff and management for its cooperation. Please contact
me either via email or by phone at (202) 482-2754, if you would like to discuss the results of
this review.
Attachment


cc: 	   Cameron F. Kerry, General Counsel, DOC
        Scott B. Quehl, Chief Financial Officer and Assistant Secretary for Administration, DOC
        Monica Medina, Principal Deputy Undersecretary for Oceans and Atmosphere
        Charles S. Baker, Acting Deputy Under Secretary for Operations, NOAA
        Samuel D. Rauch Ill, Acting Assistant Administrator for Fisheries
        Paul Doremus, Deputy Assistant Administrator for Operations, NOAA
        Lois J. Schiffer, General Counsel, NOAA
        Mary Beth Ward, Deputy General Counsel, NOAA
        Benjamin Friedman, Deputy General Counsel, NOAA
        Charles L. Green, Acting Section Chief, Enforcement Section, NOAA OGC
        Edward Horton, Chief Administrator Officer, NOAA
        Bruce Buckson, Director, NOAA Office of Law Enforcement, NMFS
        jon P. Alexander, Acting Chief Financial Officer, NOAA
        Mack Cato, Audit Liaison
                                          Report In Brief                              F E B R UAR Y 8 , 2 0 1 2




Background                             NATIONAL OCEANIC AND ATMOSPHERIC
The Asset Forfeiture Fund (AFF)
                                       ADMINISTRATION
contains proceeds from marine          More Action Needed to Improve Controls
resource violations that are ex-       in Asset Forfeiture Fund
pendable under the guidelines of       OIG-12-019-I
the Magnuson-Stevens Act section
311 (e)(1). Clifton Gunderson, an      WHAT WE FOUND
independent audit firm, determined     NOAA lacks controls to assure that all proceeds are received and accurately
the AFF asset balance to be $13.6      recorded. Also, NOAA has not accurately recorded or adequately pursued the
million, with $7.5 million of unre-    total amount owed for fines and penalties.
stricted cash, as of March 31, 2011.
                                       WHAT WE RECOMMEND
                                       We recommend that the Under Secretary of Commerce for Oceans and
Why We Did This Review
                                       Atmosphere require the following:
We addressed concerns over the         1. NOAA’s Office of Law Enforcement (OLE) and Enforcement Section develop
Asset Forfeiture Fund raised in           policies and procedures that ensure that payments due to the government
OIG reports published in January          are recorded accurately and in a timely manner, and implement a
2010 and July 2010, which revealed
                                          segregation-of-duties matrix identifying compatible and incompatible
several weaknesses in NOAA’s
                                          functions associated with the collection, recording, deposit, and
management and internal controls
over the AFF. We reviewed
                                          reconciliation of fines, penalties, and forfeitures.
NOAA’s approach to defining and        2. OLE train agents and enforcement technicians on collection procedures and
reporting on the AFF. We also ex-         policies.
amined AFF policies and proce-         3. Enforcement Section headquarters work with the Enforcement Section
dures and controls over AFF col-          Northeast division to improve the timeliness of the division’s lockbox
lections and disbursements.               submissions.
Our review sought to determine         4. OLE, the Enforcement Section, and NOAA Finance implement a process to
whether (1) NOAA properly de-             ensure that deposit account cases are periodically reviewed and that legally
fined assets comprising the AFF,          resolved cases are transferred from the deposit account or returned to a
including the completeness and            respondent in a timely manner.
accuracy of funding sources, (2)       5. OLE implement procedures to track and reconcile how Enforcement Action
NOAA appropriately defined allow-         Reports are used and issued, including those issued to joint enforcement
able uses of fund assets and devel-       partners and the U.S. Coast Guard.
oped controls over collections and
disbursements, and                     6. OLE evaluate the Law Enforcement Accessible Database System (LEADS)
(3) the audit plan of the AFF finan-      internal control weaknesses, develop specific protocol for recording
cial statements, compiled by an           information, and restrict LEADS user access to cases.
independent auditor, was designed      7. The Enforcement Section develop policies and procedures to ensure that
to provide reliance on the AFF cash       debts are recorded in the Commerce Business System (CBS) as soon as
balances as of March 31, 2011, and        legally enforceable, which will include independent monitoring for amounts
whether the independent auditor           not yet recorded in CBS.
could provide an opinion on the
balance.
                                       8. The Enforcement Section standardize its case monitoring process and
                                          reinforce use of the JustWare system.
                                       9. The Enforcement Section and NOAA Finance develop policies and
                                          procedures to consistently pursue collection of fines and penalties in a
                                          manner that treats all respondents uniformly and in compliance with the
                                          Debt Collection Improvement Act of 1996.
 



Contents 

Introduction .......................................................................................................................................................1
 
Findings and Recommendations ....................................................................................................................3
 
      I. NOAA Has No Assurance That All Proceeds from Assessed Fines, Penalties, and 

         Forfeitures Are Received and Accurately Recorded......................................................................3
 
        A. OLE and the Enforcement Section collection and deposit processes for fines, penalties, 

           and forfeitures are not adequately segregated ..............................................................................3
 
        B. The AFF deposit account lacks monitoring ....................................................................................6
 
        C. Enforcement Action Reports are not tracked and reconciled..................................................7
 
        D. LEADS lacks controls to ensure data integrity and consistent case reporting .....................7
 
     II. NOAA Has Not Accurately Recorded or Adequately Pursued the Total Amount Owed 

         for Fines and Penalties ............................................................................................................................8
 
        A. Debts due NOAA are not always recorded accurately or in a timely manner.....................8
 
        B. NOAA failed to pursue collection of overdue fines and penalties ...........................................9
 
Other Matters ................................................................................................................................................ 10
 
      I. The AFF Does Not Contain All Fines, Penalties, and Forfeited Proceeds Collected 

         by NOAA for Marine Resource Violations..................................................................................... 10
 
     II. NOAA’s Accounting for the Use of Fines and Penalties from the Northeast Multispecies

         Fishery Management Plan.................................................................................................................... 11
 
    III. Further Clarification of AFF Inflow and Outflow Data ................................................................. 11
 
    Recommendations....................................................................................................................................... 13
 
Summary of Agency and OIG Comments................................................................................................ 14
 
Appendix A: Objectives, Scope, and Methodology ................................................................................ 15
 
Appendix B: Monetary Benefits.................................................................................................................. 16
 
Appendix C: Agency Response................................................................................................................... 17
 




                                                                                                                    COVER: Detail of fisheries pediment, 
                                                                                                           U.S. Department of Commerce headquarters, 
                                                                                                                   by sculptor James Earle Fraser, 1934 




 
  DEPARTMENT OF COMMERCE
U.S.                                                                                    OFFICE OF INSPECTOR GENERAL


Introduction 

We began a nationwide review of the policies and practices of the
National Oceanic and Atmospheric Administration’s (NOAA’s)        The Asset Forfeiture Fund 
Office of Law Enforcement (OLE) and NOAA Office of the            (AFF) contains proceeds from 
                                                                  marine resource violations 
General Counsel Enforcement Section (Enforcement Section) in
                                                                  that are expendable under the 
June 2009, at the request of Dr. Jane Lubchenco, Under Secretary guidelines of the Magnuson 
of Commerce for Oceans and Atmosphere. In January 2010, we        Stevens Act section 311 (e)(1). 
reported that controls over the accounting of payments for        Clifton Gunderson, an 
marine resource violations were weak and, therefore, we could     independent audit firm, 
not readily determine how NOAA used the funds. As a result, we determined the AFF asset 
contracted with KPMG, an independent certified public             balance to be $13.6M, with 
                                                                  $7.5M of unrestricted cash, as 
accounting firm, to conduct a forensic review of asset forfeiture of March 31, 2011. 
fund (AFF) expenditures. KPMG’s review, published in July 2010,1
revealed several weaknesses in NOAA’s management and internal
controls over the AFF.2 The report also showed that NOAA inconsistently identified accounts
that constituted the AFF. KPMG could not accurately segregate these accounts and therefore
could not identify AFF revenues and expenditures.3

NOAA quickly outlined a corrective action plan to address the recommendations in our July
report. The plan’s key initiatives included

              •       defining the fund; 


              •       obtaining an independent review and confirmation of its balance; 


              •	 documenting a formal interpretation of the statutory language in the Magnuson-
                 Stevens Fishery Conservation and Management Act (the Magnuson-Stevens Act)4
                 and identifying authorized uses;

              •	 developing an internal, formal policy for authorized and prohibited uses of AFF
                 money; and

              •	 centralizing approval processes for expenditures, including formal approval for all
                 AFF expenditures over $1,000.




                                                            
1
   Commerce OIG, Review of NOAA Fisheries Enforcement Asset Forfeiture Fund, OIG-19887-1, July 2010.

2
   See Other Matters, section I, for a list of fines, penalties, and forfeitures that currently are included in the AFF.
  
3
   See Other Matters, section III.

4
   The Magnuson-Stevens Act is codified, as amended, at 16 U.S.C. § 1801 et seq.
 


OFFICE OF AUDIT AND EVALUATION: FINAL REPORT OIG-12-019-I                                                                     1
  DEPARTMENT OF COMMERCE
U.S.                                                                     OFFICE OF INSPECTOR GENERAL

In February 2011 we initiated a review that evaluated key aspects of                          OLE
AFF operations. Specifically, our follow-up focused on determining (1)        •Duties not adequately segregated
                                                                              •Lacks deposit account monitoring
if NOAA properly defined assets comprising the AFF, including the
                                                                              •Lacks EAR tracking
completeness and accuracy of funding sources; (2) if NOAA                     •LEADS lacks data integrity controls
appropriately defined allowable uses of fund assets and developed
controls over collections and disbursements; and (3) if the audit plan of
Clifton Gunderson, the independent auditor of the AFF, was designed to
provide reliance on the AFF cash balances as of March 31, 2011, and if
the firm can provide an opinion on the balance.                                       Enforcement Section
                                                                               •Duties not adequately segregated
Our review found that NOAA                                                     •Debts not recorded accurately or 
                                                                                in timely way
                                                                               •Lacks deposit account monitoring
     •   lacks appropriate controls to assure that all proceeds from
         fines, penalties, and forfeitures are received and accurately
         recorded; and

     •   has not accurately recorded or adequately pursued the total
         amount owed for fines and penalties.                                             NOAA Finance
                                                                               •Lacks deposit account monitoring
We also                                                                        •Fails to pursue collection of 
                                                                                overdue fines 

    •    noted the AFF does not contain all fines, penalties, and
         forfeited proceeds collected by NOAA for marine resource           Figure 1. Breakdown of Issues by Office
         violations;

    •    described NOAA’s accounting for the use of fines and penalties from Northeast
         Multispecies Fishery Management Plan; and

    •    provided further clarification of the AFF inflow and outflow data.

Figure 1 shows a comprehensive look of the various control weaknesses we identified during
our review. These are further described in detail throughout this report.



                                   




OFFICE OF AUDIT AND EVALUATION: FINAL REPORT OIG-12-019-I                                                  2
  DEPARTMENT OF COMMERCE
U.S.                                                                    OFFICE OF INSPECTOR GENERAL


Findings and Recommendations
I. NOAA Has No Assurance That All Proceeds from Assessed Fines, Penalties,
   and Forfeitures Are Received and Accurately Recorded
Our review indicates NOAA lacks adequate internal controls over its                                    OLE
collection of fines, penalties, and forfeiture proceeds included in the fund,     • Duties not adequately segregated
                                                                                  • Lacks deposit account monitoring
and therefore does not have assurance that all amounts due NOAA are               • Lacks EAR tracking
actually received. Office of Management and Budget (OMB) Circular A-              • LEADS lacks data integrity controls

123, Management’s Responsibility for Internal Control, 8, states: “Monitoring
the effectiveness of internal control should occur in the normal course of
business. In addition, periodic reviews, reconciliations or comparisons of
data should be included as part of the regular assigned duties of                           Enforcement Section
personnel. Periodic assessments should be integrated as part of                    • Duties not adequately segregated
management’s continuous monitoring of internal control, which should be            • Lacks deposit  account monitoring

ingrained in the agency’s operations.”

Our review of NOAA’s fine and penalty collection process identified
significant internal control weaknesses that increase the risk of fraud.
These include inadequate segregation of duties; policies and procedures                          NOAA Finance
that lack financial controls and methods for monitoring collection; lack of       • Lacks deposit account monitoring
deposit fund monitoring; failure to track and reconcile Enforcement
Action Reports (EARs); and lack of system controls in NOAA’s case
management system.                                                                Figure 2. Issues by Office for Finding I


Figure 2 provides a summary of the control weaknesses that we identified during our review
related to receipt of fines and penalties.

A. OLE and the Enforcement Section collection and deposit processes for fines, penalties, and
forfeitures are not adequately segregated

OLE and the Enforcement Section do not maintain effective segregation of duties for the
collection and deposit of fines and penalties. To prevent opportunities for fraud, duties should
be segregated to ensure that no single person is responsible for several key activities associated
with collections. Failure to adequately segregate key collection activities may result in
undetected misuse of funds. We reviewed summary settlement collection procedures and
found the following three examples of inadequate segregation of duties within OLE and the
Enforcement Section:

    1.	 Regional enforcement technicians have both custody and recording roles that should be 

        segregated (see table 1). Regional enforcement technicians collect all incoming mail that 

        contains summary settlement payments, prepare payments for deposit to a dedicated 

        lockbox, and enter the payment receipts into the Law Enforcement Accessible Database 

        System (LEADS), an OLE web-based system for entering, managing, and reporting law 

        enforcement data. The enforcement technicians also have access to altering fine and



OFFICE OF AUDIT AND EVALUATION: FINAL REPORT OIG-12-019-I                                                        3
  DEPARTMENT OF COMMERCE
U.S.                                                                               OFFICE OF INSPECTOR GENERAL

            penalty amounts within the LEADS database, which should not be provided to the
            person who collects the payments.

Table 1. Compatibility of Regional Enforcement Technicians’ Multiple Roles
              Role                 Process Incoming Checksa   Send Checks to Lockboxa   Update LEADSb


Process Incoming Checksa           -----                      Incompatible              Incompatible


Send Checks to Lockboxa            Incompatible               -----                     Incompatible


Update LEADSb                      Incompatible               Incompatible              -----

a
    Custodial role. bRecording role.
Source: OIG



       2.	 OLE agents can perform asset custody and recording roles that should be performed by
           three different people (see table 2). OLE agents have the authority to seize fish caught in
           violation of marine resource laws. OLE agents who identify unallowable marine catches
           are responsible for seizing the catch, negotiating the sale of the seized catch, receiving
           proceeds from the sale, updating LEADS, and delivering the proceeds to the regional
           enforcement technician.

Table 2. Compatibility of OLE Agents’ Multiple Roles
                           Seizing Catch and       Receiving Proceeds                           Delivering Proceeds
           Role                                                          Updating LEADS b
                                                                                                to Techniciana
                           Negotiating Salea       from Salea

Seizing Catch and                                                                               Incompatible
                           -----                   Incompatible          Incompatible
Negotiating Salea

Receiving Proceeds                                                                              Incompatible
                           Incompatible            -----                 Incompatible
from Salea

Updating LEADSb            Incompatible            Incompatible          -----                  Incompatible

Delivering Proceeds                                                                             -----
                           Incompatible            Incompatible          Incompatible
to Techniciana
a
 Custodial role. bRecording role.
Source: OIG

 




OFFICE OF AUDIT AND EVALUATION: FINAL REPORT OIG-12-019-I                                                         4
  DEPARTMENT OF COMMERCE
U.S.                                                                                                OFFICE OF INSPECTOR GENERAL

       3.	 Within their own authority, Enforcement Section attorneys can perform authorization,
           asset custody, and recording roles that should be performed by three different people
           (see table 3). Enforcement Section attorneys are responsible for issuing a Notice of
           Violation and Assessment, negotiating payment options, updating EMIS/JustWare,5
           collecting the first payment, submitting the first payment to the Enforcement Section
           paralegal who prepares the payment for lockbox deposit, and if any remaining balance
           exists for the case, forwarding a case package to NOAA Finance to establish a
           receivable in NOAA’s financial system.


Table 3. Compatibility of Enforcement Section Attorneys’ Multiple Roles
                                                                                                                      Submitting
                                                                                                       Submitting     Remaining
                           Issuing                     Negotiating    Updating       Collecting
      Role                                                                       b                     Payment to     Balance to
                           NOVAc                       Paymentc       JustWare       Paymenta
                                                                                                       Lockboxa       NOAA
                                                                                                                      Financea
Issuing
                           -----                       Compatible     Compatible     Incompatible      Incompatible   Incompatible
NOVAc

Negotiating
                           Compatible                  -----          Compatible     Incompatible      Incompatible   Incompatible
Paymentc

Updating
                           Compatible                  Compatible     -----          Incompatible      Incompatible   Incompatible
JustWareb

Collecting
                           Incompatible                Incompatible   Incompatible   -----             Incompatible   Incompatible
Paymenta

Submitting
Payment to                 Incompatible               Incompatible    Incompatible   Incompatible      -----          Incompatible
Lockboxa

Submitting
Remaining
Balance to                 Incompatible                Incompatible   Incompatible   Incompatible      Incompatible   -----
NOAA
Financea
a
    Custodial role. bRecording role. cAuthorization role.
Source: OIG.



In all three examples, an OLE or Enforcement Section employee is assigned excessive control
over a revenue collection process, without compensating controls. This represents a failure to
adequately segregate roles associated with fine and penalty collection, deposits, and recording.
It also increases the risk that funds can be misappropriated without detection.

                                                            
5
 EMIS was GCEL’s electronic case management system until it was replaced with the JustWare case management
system in 2011.


OFFICE OF AUDIT AND EVALUATION: FINAL REPORT OIG-12-019-I                                                                          5
  DEPARTMENT OF COMMERCE
U.S.                                                                 OFFICE OF INSPECTOR GENERAL

Adding to the control deficiencies is that OLE’s and Enforcement Section’s written fine and
penalty collection policies do not address financial internal controls for OLE and Enforcement
Section operations. Although some OLE regional offices provided us with policies, none of the
policies adequately addressed key internal controls related to segregation of duties, which are
needed to prevent misappropriation of government assets. Other key duties, related to
reconciling collection accounts and monitoring payment status, also were not addressed.

In addition to the segregation of duties issues, one Enforcement Section division is holding
checks received for case payments for as long as a month or more before depositing funds in
the lockbox. Per Enforcement Section collection guidance, all checks received should be
submitted to the lockbox once or twice a week. Failure to remit checks to the lockbox in a
timely manner increases the risk of misappropriation.

B. The AFF deposit account lacks monitoring

Neither OLE nor the Enforcement Section are monitoring deposit account balance to ensure
that amounts are transferred to the AFF or returned to the respondent upon final disposition
of a case. The deposit account holds proceeds that are pending legal determination from the
sale of property seized by OLE agents. Once a case has a determination, funds should be moved
from the deposit account in accordance with the legal disposition; either by returning money to
the respondent or transferring money to one of NOAA’s marine resource funds. Funds held in
the deposit account are not available for NOAA’s use. Because these amounts represent both
an asset and a liability to the government until the case is legally resolved, it is essential that
NOAA maintains an accurate deposit fund account and remits all funds due to respondents in a
timely manner. As of March 31, 2011, NOAA’s deposit account had a balance of $4.8 million.

Our analysis identified that more than $1 million, or 22 percent of the deposit account balance,
has been held by NOAA for at least 4 years (see figure 3).




OFFICE OF AUDIT AND EVALUATION: FINAL REPORT OIG-12-019-I                                         6
  DEPARTMENT OF COMMERCE
U.S.                                                                        OFFICE OF INSPECTOR GENERAL

Figure 3. Deposit Account Balances (as of March 31, 2011) by Age of Deposit

                         All Cases                                      Cases 4 Years and Older
                     Total:  $4,758,707       $495,753 
                                                10%
   $260,386                                                 $323,708 
     5%                                                        7%

                                                                               $569,447 
                                                                                 12%
                                                                                                  $42,808 
                                                                                                    1%
                                    4 Years or More
                                       $1,029,573
               $2,649,287                                                                       $31,910 
                                          22%
                  56%                                                       $331,136              1%
                                                                               7%             $54,272 
                                                                                                1%



               0‐1 Year           1‐2 Years               2‐3 Years      3‐4 Years         4‐5 Years
               5‐6 Years          6‐7 Years               7‐8 Years      8‐9 Years
Source: OIG analysis of NOAA data

As a result of our findings, NOAA reviewed the deposit account balance and identified 113
cases that had received final dispositions from as far back as 2002. Of these, 13 require NOAA
to refund respondents over $41,000, and the other 100 dispositions require NOAA to transfer
more than $830,000 from the restricted deposit account to the unrestricted asset account of
the AFF. This accounting should be reflected in the AFF financial statements.

C. Enforcement Action Reports are not tracked and reconciled

OLE agents prepare Enforcement Action Reports for marine resource violations but do not use
these to identify all potential fines and penalties due NOAA. As a result, NOAA is unable to
reconcile EARs to amounts recorded in the accounting system. NOAA managers can use EARs
to identify and monitor all enforcement activity conducted either by OLE agents, joint
enforcement partners, or the U.S. Coast Guard, and to anticipate fines, penalties, and seized
property that should be remitted to NOAA. However, before April 2011, NOAA had not
inventoried these reports and was not tracking their use. This significantly limits NOAA’s ability
to monitor OLE operations and collections, and increases the risk that funds can be
misappropriated without detection.

D. LEADS lacks controls to ensure data integrity and consistent case reporting

OLE agents and technicians have unrestricted access to cases in LEADS and can readily and
easily modify case information—of their own cases and those of other agents. As a result,
NOAA cannot ensure the integrity of case data. Although NOAA does not consider LEADS a
financial system of record, it is the first place that collections of fines and penalties are


OFFICE OF AUDIT AND EVALUATION: FINAL REPORT OIG-12-019-I                                                  7
  DEPARTMENT OF COMMERCE
U.S.                                                                              OFFICE OF INSPECTOR GENERAL

recorded. With proper controls, the information recorded in LEADS could be relied on to
supplement and/or verify the completeness of NOAA’s accounting records.

OLE also has not established a protocol for consistently entering case information in LEADS, so
data extracted from the system has limited value. OLE uses LEADS to track case information,
including summary settlement payments. However, the system’s drop-down menus provide
multiple options to describe a case’s status or other actions. Based on inquiries with OLE
management, we found that an agent’s selection on the drop-down menu is subjective; agents
may choose different descriptions for the same case status. For example, when seized items are
transferred to labs for testing, some agents will classify this item as "transferred,” while others
may classify it as “on hand.”

II. NOAA Has Not Accurately Recorded or Adequately Pursued the Total
   Amount Owed for Fines and Penalties

Although NOAA is required to record payments due as soon as                             Enforcement Section
NOAA has a claim to the money and it should6 take prompt action                        •Debts not recorded 
                                                                                        accurately or in a timely way
to recover debts, our review found that NOAA does not
consistently record, monitor, and pursue the collection of Notices
of Violation and Assessment (NOVAs). As a result, NOAA was
required to write off accounts receivable balances totaling                                 NOAA Finance
approximately $3.9 million, which represented accounts receivable                      •Failure to pursue collection 
more than 2 years past due. The total owed to NOAA prior to the                         of overdue fines 

write-off was $4.9 million.                                                         Figure 4. Issues by Office for Finding II

Figure 4 provides a summary of the recording control weaknesses we identified during our
review.

A. Debts due NOAA are not always recorded accurately or in a timely manner

The Enforcement Section does not inform NOAA Finance in a timely manner when NOAA has
a claim to the fine levied in a NOVA, which should be recorded as an outstanding accounts
receivable. A marine resource fine or penalty in a NOVA becomes effective if no response is
received by 30 days after a NOVA is served or by the end of any extension period. In such
cases, those fines are due 30 days after the effective date. Marine resource fines or penalties
may also come due if a settlement agreement is reached. Enforcement Section attorneys
forward case information, including balances owed, to NOAA Finance once a debt is final and
therefore legally enforceable. However, only the Enforcement Section attorneys assigned to the
case know when the fine becomes final. There is no independent method of monitoring
whether cases are submitted to NOAA Finance in a timely manner. For example, although one
NOVA we identified became past due in June 2007, the Enforcement Section did not request
that NOAA Finance establish a receivable until December 2007, when the NOVA was another
                                                            
6
 The Federal Accounting Standards Advisory Board SFFAS 1, Accounting for Selected Assets and Liabilities, states
that a receivable “should be recognized when a federal entity establishes a claim to cash or other assets against
other entities, either based on legal provisions, such as a payment due date, (e.g., taxes not received by the date
they are due), or goods or services provided.”


OFFICE OF AUDIT AND EVALUATION: FINAL REPORT OIG-12-019-I                                                               8
  DEPARTMENT OF COMMERCE
U.S.                                                                        OFFICE OF INSPECTOR GENERAL

6 months past due. Because of this delay, NOAA’s accounts receivable were understated for
two consecutive quarters.

NOAA also has not developed adequate process controls over AFF accounts receivable
balances to ensure that what is recorded in its financial system accurately reflects the balance
due the government. For example, one case recorded in the Commerce Business System
(CBS), NOAA’s financial recording system, in 2008 remains outstanding even though the
Enforcement Section accepted a modified settlement agreement that forgave the remaining
balance. The respondent fulfilled the terms of the agreement in June 2010.

Issues related to the timely and accurate recording of receivables may continue until process
controls are adequately addressed in policy and enforced. Enforcement Section’s written
guidelines do not contain adequate internal controls for monitoring case payments prior to
debts becoming legally enforceable. Currently, Enforcement Section attorneys are solely
responsible for monitoring the status of NOVAs before the balance is recorded in NOAA’s
financial system. The guidelines, however, do not describe how, or how often, Enforcement
Section attorneys should monitor cases; nor do they provide a method for independent
monitoring of case resolution. Most attorneys interviewed did not use the Enforcement
Section’s case-tracking software (JustWare) to monitor cases. JustWare is the Enforcement
Sections’s web-based case management software used to record pertinent case information.
Instead, attorneys tracked the status of open cases with other methods, such as individual
worksheets or hard copy files. Monitoring cases this way does not permit independent
oversight of collection status by Enforcement Section management or NOAA Finance.

B. NOAA failed to pursue collection of overdue fines and penalties

The Debt Collection Improvement Act of 1996 “requires agencies to take prompt action to
recover debts, aggressively monitor all accounts . . . [and] transfer all non-tax debts delinquent
more than 180 days to the Department of the Treasury.”7 NOAA has not implemented
sufficient practices to ensure compliance with the requirement and to follow up on cases in
which payment has not been received.

As a result of Clifton Gunderson’s independent audit, NOAA has written off accounts
receivable balances totaling $3.9 million. The write-offs occurred because NOAA was not
pursuing collections of amounts owed by respondents. Our review of the AFF accounts
receivable balance indicates that as of March 31, 2011, nearly all balances reported in the
financial statement were more than 360 days past due. NOAA’s past attempts to pursue
collection−including hiring a contractor for this purpose−were ineffective.

 




                                                            
7
  Office of Mgmt. & Budget, Executive Office of the President, OMB Memorandum M-04-10, Debt Collection
Improvement Act Requirements (2004). 


OFFICE OF AUDIT AND EVALUATION: FINAL REPORT OIG-12-019-I                                                9
  DEPARTMENT OF COMMERCE
U.S.                                                                               OFFICE OF INSPECTOR GENERAL


Other Matters
I. The AFF Does Not Contain All Fines, Penalties, and Forfeited Proceeds
   Collected by NOAA for Marine Resource Violations
NOAA defines the AFF as marine resource violation proceeds that can be expended according
to the Magnuson-Stevens Act, section 311(e)(1). However, this definition does not encompass
all marine resource violation proceeds that NOAA collects. OLE enforces approximately 32
statutes related to marine resources and most of these statutes are silent on how to expend
collected proceeds. For marine resource statutes silent on how to expend proceeds, NOAA
applies Magnuson-Stevens Act, section 311(e)(1), and includes the proceeds in the AFF.
However, some marine resource statutes include language that NOAA interprets to exclusively
control how NOAA disposes of fines, penalties and forfeited property. See table 4 for a list of
other statutes identified by NOAA as having similar characteristics.

Table 4. NOAA’s Classification of Marine Resource Fines, Penalties, and Forfeitures

AFF Fines, Penalties, & Forfeitures                      Other Fines, Penalties, & Forfeitures NOT
                                                         Included in AFF
Fines, penalties, and forfeited proceeds that can be     Fines, penalties, and forfeited proceeds for violations of the
retained under Magnuson-Stevens Act, § 311(e)(1)         South Pacific Tuna Act
Marine Sanctuaries criminal fines                        Marine Sanctuaries civil penalties and forfeited
                                                         proceeds
Direct cost related to fines, penalties, and forfeited   Fines, penalties and forfeited proceeds, less direct costs,
proceeds from American Samoa, Guam, or                   for American Samoa, Guam, or Northern Mariana Islands
Northern Mariana Islands
Forfeited proceeds by foreign vessels within the         Fines and penalties by foreign vessels within the exclusive
exclusive economic zones of Midway Atoll, Johnston       economic zones of Midway Atoll, Johnston Atoll, Kingman
Atoll, Kingman Reef, Palmyra Atoll, Jarvis, Howland,     Reef, Palmyra Atoll, Jarvis, Howland, Baker, and Wake
Baker, and Wake Islands                                  Islands
Source: OIG summary of NOAA’s Chart of Statutory Provisions and Fund, Project and Task Code Crosswalk, December
20, 2010

NOAA does not consider proceeds collected under statutes that it interprets to have specific,
exclusively controlling expenditure language as part of the AFF since the funds cannot be spent
under Magnuson-Stevens Act, section 311(e)(1). NOAA segregates these proceeds from the
AFF in its financial accounting system.

Because some proceeds are not considered part of the AFF, they are subject to different
controls. For example, NOAA developed policies and procedures to improve the AFF
expenditure process; however, marine sanctuary civil penalties are not covered because they
do not fall within NOAA’s definition of the AFF. In addition, non-AFF proceeds were not
subjected to an independent audit of the AFF in March 2011. While NOAA’s current definition
of the AFF includes the collections for a majority of the marine resource statutes which NOAA
enforces, the disparity in how they are monitored may be misleading to the public.


OFFICE OF AUDIT AND EVALUATION: FINAL REPORT OIG-12-019-I                                                            10
  DEPARTMENT OF COMMERCE
U.S.                                                                           OFFICE OF INSPECTOR GENERAL

Another account outside of NOAA’s definition of the AFF, and therefore not included in the
independent audit, is the Special Operations Fund. NOAA agents use the Special Operation
Fund to perform undercover operations. The Special Operations Fund is comprised solely of
AFF monies and is maintained in multiple commercial bank accounts.8 We did not conduct a
detailed review of the Special Operation Fund’s activity, but acquired an understanding of the
location of accounts and method of account replenishment and withdrawal. Even though this
fund contains only the proceeds of fines, penalties and forfeitures under the Magnuson-Stevens
Act, the fund’s transactions are not recorded in NOAA’s financial system and therefore are not
subject to the AFF’s new accounting policies. This separation could result in Special Operations
Fund monies being used for activities outside of what the Magnuson-Stevens Act allows.

II. NOAA’s Accounting for the Use of Fines and Penalties from the Northeast
    Multispecies Fishery Management Plan

The Magnuson-Stevens Act, section 311(f)(4), states that proceeds attributable to fines and
penalties for violations of the Northeast Multispecies Fishery Management Plan (the Plan) shall
be expended for further enforcement of the Plan. As part of NOAA’s effort to define the AFF,
NOAA requested Department of Commerce Office of General Counsel (OGC) interpret the
statute and specifically identify restrictions placed on proceeds collected pursuant to the
section. OGC concluded in its February 28, 2011, Legal Memorandum that fines and penalties
collected for violations of the Plan can also be expended according to the broader guidelines of
the Magnuson-Stevens Act, section 311(e)(1).

While the February 28, 2011, Legal Memorandum provides NOAA with the flexibility to use
Plan proceeds against the broader guidelines of the Magnuson-Stevens Act, NOAA has
developed accounting project codes that track Plan proceeds separately. In our July 2010
report, we noted that NOAA used the AFF for wide-ranging purposes and that it comingled
AFF funds with other bureau funds. In response to this report, NOAA Finance implemented an
accounting structure that separately tracks AFF proceeds and expenditures and that further
identifies proceeds specifically collected pursuant to the Plan, section 311 (f)(4). Because the
accounting project codes remain and are being used in FY 2012, we expect that the separate
tracking of previously comingled funds will continue.

III. Further Clarification of AFF Inflow and Outflow Data
In July 2010, we reported that KPMG was unable to discern the current balance of the AFF
because it found that NOAA did not have a consistent definition of the AFF, and indicated the
AFF was more of an abstract concept than a tangible entity within NOAA. As a result, KPMG
needed to develop a methodology so that all potential AFF activities would be included in its
forensic review. Because AFF was not reliably defined, KPMG’s criteria were intentionally broad
to ensure that all potential AFF transactions were subjected to their forensic review. While this
is a common technique that auditors use to address concerns about the completeness of a


                                                            
8
  The statute governing the Special Operations Fund provides that NOAA may obtain appropriations for the Fund. 
Despite this, the Special Operations Fund monies currently derive solely from AFF accounts. 


OFFICE OF AUDIT AND EVALUATION: FINAL REPORT OIG-12-019-I                                                     11
  DEPARTMENT OF COMMERCE
U.S.                                                                OFFICE OF INSPECTOR GENERAL

population, KPMG’s criteria caused some confusion about the true balance of the fund. KPMG’s
criteria included all transactions

    •   identified as civil monetary penalties,

    •   made by OLE and the Enforcement Section, and

    •   included in the deposit account.

From these criteria, KPMG identified $96 million of inflows and $49 million of outflows from
723 project codes between January 1, 2005, and June 30, 2009. However, the inflows and
outflows identified by KPMG should not be subtracted to calculate the AFF activity for this time
period. These values represent all transactions−including journal entries and accounting
adjustments−not just AFF inflows and outflows of fines, penalties, and forfeitures. Additionally,
the 723 project codes contain non-AFF activity made by OLE and the Enforcement Section. In
March 2011, Clifton Gunderson, an independent audit firm, audited the AFF and determined
the unrestricted cash balance to be $7.5M.
 




OFFICE OF AUDIT AND EVALUATION: FINAL REPORT OIG-12-019-I                                      12
  DEPARTMENT OF COMMERCE
U.S.                                                                   OFFICE OF INSPECTOR GENERAL


Recommendations

    We recommend that the Under Secretary of Commerce for Oceans and Atmosphere
    require that

    1.	 OLE and Enforcement Section develop policies and procedures that ensure payments
        due to the government are recorded accurately and in a timely manner, and implement
        a segregation-of-duties matrix identifying compatible and incompatible functions
        associated with the collection, recording, deposit, and reconciliation of fines, penalties,
        and forfeitures;

    2.	 OLE train agents and enforcement technicians on collection procedures and policies;

    3.	 Enforcement Section headquarters work with the Enforcement Section Northeast
        division to improve the timeliness of the division’s lockbox submissions;

    4.	 OLE, the Enforcement Section, and NOAA Finance implement a process to ensure that
        deposit account cases are periodically reviewed and that legally resolved cases are
        transferred from the deposit account or returned to a respondent in a timely manner;

    5.	 OLE implement procedures to track and reconcile how Enforcement Action Reports
        are used and issued, including those issued to joint enforcement partners and the U.S.
        Coast Guard;

    6.	 OLE evaluate LEADS internal control weaknesses, develop specific protocol for 

        recording information, and restrict LEADS user access to cases;


    7.	 Enforcement Section develop policies and procedures to ensure that debts are recorded
        in CBS as soon as legally enforceable, and that will include independent monitoring for
        amounts not yet recorded in CBS;

    8.	 Enforcement Section standardize its case monitoring process and reinforce use of the
        JustWare system; and

    9.	 Enforcement Section and NOAA Finance develop policies and procedures to
        consistently pursue collection of fines and penalties in a manner that treats all
        respondents uniformly, and in compliance with the Debt Collection Improvement Act of
        1996.




OFFICE OF AUDIT AND EVALUATION: FINAL REPORT OIG-12-019-I                                         13
  DEPARTMENT OF COMMERCE
U.S.                                                            OFFICE OF INSPECTOR GENERAL


Summary of Agency and OIG Comments
We reviewed NOAA’s response, included in appendix C, and considered NOAA’s comments
in preparing this final report. NOAA concurred with the recommendations in our report and
noted that corrective actions are already under way to address many of the recommendations
in the report.

We look forward to reviewing NOAA’s action plan to address our report recommendations.




 




OFFICE OF AUDIT AND EVALUATION: FINAL REPORT OIG-12-019-I                                    14
  DEPARTMENT OF COMMERCE
U.S.                                                               OFFICE OF INSPECTOR GENERAL


Appendix A: Objectives, Scope, and
Methodology
The objective of this review was to determine (1) if NOAA properly defined assets comprising
the asset forfeiture fund, including the completeness and accuracy of funding sources; (2) if
NOAA appropriately defined allowable uses of fund assets and developed controls over
collections and disbursements; and (3) if the audit plan from Clifton Gunderson, the
independent auditor of the AFF, is designed to provide reliance on the AFF cash balances as of
March 31, 2011, and if the firm can provide an opinion on the balance.

We obtained an understanding of the definition of the fund and the assets that comprise the
fund by interviewing NOAA Finance management and NOAA headquarters general counsel and
reviewing newly established NOAA policies and other relevant documents. In addition, we
obtained and reviewed data from the general ledger, the Commerce Business Systems (CBS),
NOAA’s financial accounting system. To assess the reliability of the CBS data, we reconciled
the detailed data files with general ledger reports to ensure accuracy and completeness. We
also reviewed supporting documentation for collection and disbursement transactions selected
for control test work, which was provided by NOAA Finance, OLE, and the Enforcement
Section. For our third objective, we reviewed a copy of the audit plan used to support Clifton
Gunderson’s opinion.

We conducted our review from February through August 2011 at the Department’s and
NOAA’s offices in the Washington, D.C., area. OIG focused its review on AFF activities
occurring from October 1, 2010, to March 31, 2011.

The review was conducted under the authority of the Inspector General Act of 1978, as
amended, and Department Organization Order 10-13, dated August 31, 2006. We conducted
the evaluation in accordance with Quality Standards for Inspection and Evaluation, January
2011, issued by the Council of Inspectors General on Integrity and Efficiency.


 




OFFICE OF AUDIT AND EVALUATION: FINAL REPORT OIG-12-019-I                                    15
  DEPARTMENT OF COMMERCE
U.S.                                                                           OFFICE OF INSPECTOR GENERAL


Appendix B: Monetary Benefits 

                                                            Unsupported Costs and
                            Questioned Costs                                        Funds Put to Better Use
                                                            Write-offs

Accounts Receivable
                            $0                              $ 3,900,000             $0
Processing

Deposit Account Balances    $0                              $0                      $871,000

Source: OIG prepared (Findings and Recommendations Section II.B and Recommendation 9)
  

                                   




OFFICE OF AUDIT AND EVALUATION: FINAL REPORT OIG-12-019-I                                                     16
  DEPARTMENT OF COMMERCE
U.S.                                                                                        OFFICE OF INSPECTOR GENERAL


Appendix C: Agency Response
 



                                                                   UNITED STATES DEPARTMENT OF COMMERCE
                                                                   Net:lonal Ocaanlc Br'ld Aetmo• pharlg Admlnlatrl!ll'tlan
                                                                   NAT IONAL M ARIN E F ISHERIES SERVICE
                                                                   1 31 EJ E eat:.-Weat Highway
                                                                   S11ve r S~rlng , Maryland 20910

                                                                   THE   OI ~ECTOFI




                                                                                           JAN 2 7 2012
               MEMORANDUM FOR:              Ann Ei lers
                                            Principal Assistant Inspector General
                                            Office of Audit and Evaluation
                                            Office of Inspector General, U.S. Department of Commerce

               FROM:                    (~Samuel D. Rauch             ~<\-:""-C-
                                                                           1
                                            1\cting Assistant 1\dministra\ot-c_}
                                            National Marine Fisheries Service

               SUBJJ<::CT:                  Comments on the Draft Report Entitled, "More Aclion Needed to
                                            Improve Conlrofs in Asse/ Forfeilure Fund"'


               This memorandum responds to the Drafl report from the Office of Inspector General (O IG),
               entitled " More Action Needed to Improve Controls in Asset Forfeiture Fund' . (the " report-')
               issued on December 20, 20 I I. In a letter accompanying that report, the OIG asked the National
               Oceanic and Atmospheric Administration (NOAA) to "submit any comments to the draft report
               by January 27, 20 12," and that these comments would be considered by the OIG and attached as
               an appendix to the iinal report. To complement the record offered by the OIG's D raft report,
               NOAA provides the following comments on the report's recommendations.

               At the outset, NOAA appreciates the OIG's recognition that NOAA has formally defined the
               Asset Forfeiture Fund (the "Fund") and improved internal controls over disbursements from the
               found. NOAA has made significant efforts to improve the management and oversight of the Fund
               since February 20 I 0.

               NOAA concurs with recommendations I through 9 ofthc report. These recommendations
               identify areas that we can and continue to work to improve through greater management
               oversight of the fund. As a result of the 20 II audit of the Fund, NOAA has corrective actions
               already underway that will address many of these recommendations, such as efforts to improve
               the monitoring of deposits associated with the Fund and to pursue and record fines and penalties
               owed to the government. ln addition, NOAA has referred all debts to Treasury in accordance
               with the Debt Collection Improvement 1\ct of 1996, as appropriate, and the National Marine
               Fisheries Service Office of Law Enforcement is implementing procedures to track and reconcile
               how Enforcemen t Action Reports arc used and issued. To the extent that the report provides
               recommendations for actions not already underway, NOAA will modify its corrective action plan
               and begin implementing these further improvements.

               We value the contribution that the OIG has made in identifying opportunities to further improve
               the management and oversight of the Fund. and remain committed to improving our
               Enforcement P-rogram.


                                                                            THE ASSIS T ANT A O M INIS TF=lATO A
                                                                                      FDF'I F IS H EF'IIE S
        @   Printed on Recycled Pnpcr


                                                                                                                                         

                                                                                                                   1200000‐108 





OFFICE OF AUDIT AND EVALUATION: FINAL REPORT OIG-12-019-I                                                                          17
